Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




        Medicaid’s Use of Revised
        Average Wholesale Prices




                        JANET REHNQUIST
                       Inspector General

                       SEPTEMBER 2001
                       OEI-03-01-00010
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Project Leader                          Linda Frisch, Program Specialist



 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                         EXECUTIVE                    SUMMARY

PURPOSE

          This report describes State Medicaid agencies’ use of revised average wholesale prices for
          certain prescription drugs.


BACKGROUND

          Medicaid payments for prescription drugs totaled almost $12 billion in 1998, accounting
          for nearly 7 percent of all Medicaid expenditures. Most State Medicaid agencies
          reimburse pharmacies based on the average wholesale price of a drug less a discount
          ranging from 4 to 15 percent. States do not always use the same reimbursement for drugs
          administered directly by physicians. Drug manufacturers report average wholesale prices
          to companies such as First DataBank and Medical Economics. These companies compile
          pricing data for the pharmaceutical industry.

          Recently, a national investigation conducted by the United States Department of Justice
          and the National Association of Medicaid Fraud Control Units (NAMFCU) revealed that
          some drug manufacturers were reporting inflated average wholesale prices for certain
          products. As a result, the two entities collected actual wholesale pricing data for
          approximately 400 national drug codes representing 51 drugs. This data was provided to
          First DataBank, who calculated new average wholesale prices for the drugs, and
          subsequently made the revised prices available to State Medicaid programs. The
          NAMFCU strongly encouraged States to make use of the revised prices, and anticipated
          that their implementation would result in a significant reduction in Medicaid
          reimbursement for the drugs involved.

          We gathered information from Medicaid representatives in 48 States and the District of
          Columbia. We asked States about their drug reimbursement methodologies, whether or
          not they had implemented the revised average wholesale prices, and if they had any
          problems or concerns about these prices. We also asked States that had implemented the
          revised prices to provide cost-savings estimates, if available.


FINDINGS

Thirty States use at least some of the revised average wholesale prices when
determining drug reimbursement amounts

          Thirty States have incorporated the revised prices into their drug reimbursement
          methodology in some manner. However, States vary considerably in their methods of

Medicaid’s Use of Revised Average Wholesale Prices                                     OEI-03-01-00010
          implementation. Of the 30 States that have adopted the revised prices, 9 States use them
          for both pharmacy drugs and physician-administered drugs. The remaining 21 States use
          the revised prices for pharmacy drugs only.

States reported both advantages and disadvantages to using the revised prices

          Seven States expressed complete support of the efforts to revise drug prices. These States
          noted that reported average wholesale prices are often extremely inflated, and they
          welcomed the efforts to obtain more accurate prices. Seventeen States appreciated the
          intent of the revised prices, but questioned whether the effort was the best solution.
          Nearly all States reported that certain groups opposed the use of the revised average
          wholesale prices. Opposition came from a number of sources, including hemophilia
          groups, pharmacies, infusion providers, physicians, and drug manufacturers.

States using the revised prices believe they will lead to short-term cost-savings,
but are unsure of the long-term impact

          Of the 30 States who are currently using the revised prices, 24 believed the prices will
          result in short-term cost-savings. However, 20 of the 30 States either do not believe or
          are unsure that the new prices will lead to any long-term savings. Seven States provided
          cost-savings estimates, with annual savings ranging from $800,000 to $7 million.


CONCLUSION

          Over the last several years, the OIG has produced a significant body of work that clearly
          demonstrates the inflated nature of reported average wholesale prices. Because most
          States base their reimbursement for drugs on average wholesale prices, this inflation has
          caused Medicaid to pay too much for certain products. Therefore, we commend any
          efforts to obtain more accurate pricing for the Medicaid program.

          This report shows that some States are benefitting from the revised average wholesale
          prices prompted by the actions of the Justice Department and the NAMFCU. However,
          States’ concerns about the revised prices indicate that attempting to lower reimbursement
          simply by further reducing average wholesale prices may not be an effective long-term
          solution. Therefore, we continue to believe that the current system’s reliance on reported
          average wholesale prices as a basis for drug reimbursement is fundamentally flawed.

Agency Comments

          The CMS agreed with our conclusion that the reliance on reported average wholesale
          prices as a basis for drug reimbursement is problematic, and stated that they will continue
          to look for administrative and legislative solutions to this problem. In addition, the CMS
          made two technical comments concerning items in the draft report. We have addressed
          the technical comments in this final version of the report.

Medicaid’s Use of Revised Average Wholesale Prices   ii                                 OEI-03-01-00010
                              TABLE                    OF             CONTENTS


                                                                                                                          PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          States’ Use of Revised Prices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          States’ Experiences with Revised Prices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Potential Cost Savings of Revised Prices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


          Use of Revised Average Wholesale Prices by State. . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Centers for Medicare & Medicaid Services Comments . . . . . . . . . . . . . . . . . . . . . . . . . 12





Medicaid’s Use of Revised Average Wholesale Prices              iii                                               OEI-03-01-00010
                                     INTRODUCTION

PURPOSE

          This report describes State Medicaid agencies’ use of revised average wholesale prices for
          certain prescription drugs.


BACKGROUND

          Congress created Medicaid in 1965 under Title XIX of the Social Security Act. Medicaid
          is a joint Federal and State program that provides medical assistance to individuals and
          families with low incomes and few resources. Individual States establish eligibility
          requirements, benefits packages, and payment rates for Medicaid under broad standards
          set by the Centers for Medicare & Medicaid Services (CMS). The Federal Government
          contributes between 50 and 83 percent of the Medicaid funding for each State. In 1998,
          Medicaid helped provide approximately 40 million people with medical assistance, at a
          cost of over $175 billion.

Medicaid Coverage of Prescription Drugs

          Federal guidelines require States to provide certain benefits, such as hospital and physician
          services, to their Medicaid recipients. Each State also has the option of providing other
          Medicaid benefits, including prescription drugs. Currently, all 50 States and the District of
          Columbia offer prescription drug coverage for Medicaid recipients. Medicaid payments
          for prescription drugs totaled almost $12 billion in 1998, accounting for nearly 7 percent
          of all Medicaid expenditures.

          Most outpatient prescription drugs are covered by Medicaid. However, States often have
          different reimbursement methods for drugs obtained through pharmacies versus drugs
          administered in physicians’ offices. Drugs purchased from pharmacies are covered and
          reimbursed under States’ prescription drug programs. In contrast, drugs administered by
          physicians are usually reimbursed through the physician payment process, and not the
          prescription drug program.

          Pharmacies use national drug codes to identify and obtain reimbursement for drugs
          covered under a State’s prescription drug program. Each drug manufactured or
          distributed in the United States has a unique national drug code that identifies the
          manufacturer of the drug, the product dosage form, and the package size. Physicians,
          however, often bill Medicaid for drugs on the HCFA 1500 claim form, which does not
          specifically request national drug code information. On the HCFA 1500 form, drugs are
          identified by codes in the HCFA Common Procedure Coding System, hereinafter referred

Medicaid’s Use of Revised Average Wholesale Prices   1                                   OEI-03-01-00010
          to as procedure codes. Procedure codes define the type of drug and the dosage amount,
          but not the specific drug product or its manufacturer.

Medicaid Drug Reimbursement Methodology

          Each Medicaid agency is required to submit a State plan to CMS describing its payment
          methodology for covered drugs. Federal regulations require that each State’s
          reimbursement for a drug not exceed, in the aggregate, the lower of its estimated
          acquisition cost or the providers’ usual and customary charge to the public for the drug.
          However, CMS allows States flexibility in defining estimated acquisition cost.

          When reimbursing for a pharmacy drug, 43 State Medicaid agencies base their calculation
          of estimated acquisition cost on the drug’s average wholesale price discounted by 4 to 17
          percent. Four other States use wholesale acquisition cost plus       5 to 11 percent when
          calculating estimated acquisition cost. Three States use a combination of both methods.
          Drug manufacturers report average wholesale prices to companies such as First DataBank
          and Medical Economics. These companies compile pricing data for the pharmaceutical
          industry. This pricing data is usually reported using national drug codes rather than
          procedure codes.

          For certain pharmacy drugs, States use the Federal Upper Limit and the State Maximum
          Allowable Cost programs in determining reimbursement amounts. The CMS has
          established Federal upper limit payment amounts for over 200 drugs. In addition, more
          than half of States have implemented a maximum allowable cost program to limit payment
          amounts for certain prescription drugs. States vary considerably in the method by which
          this maximum allowable cost is calculated. A small number of States use other pricing
          mechanisms for specific categories of drugs, such as blood factors used in the treatment of
          hemophilia. These States may obtain prices directly from manufacturers, require invoices
          from providers that show actual acquisition costs, or calculate reimbursement through
          various other methods.

          Many States reimburse physician-administered drugs differently than pharmacy drugs.
          The majority of States still base reimbursement for physician-administered drugs on
          average wholesale price. However, some States discount average wholesale prices by
          different amounts for physician drugs compared to pharmacy drugs, while other States
          subtract no discount at all. Many physician-administered drugs are billed using procedure
          codes that do not have corresponding average wholesale prices. Therefore, calculating
          reimbursement amounts for physician-administered drugs can be more complicated than
          for pharmacy drugs.

          Overall, most Medicaid States reimburse for drugs purchased from a pharmacy at the
          lower of the discounted average wholesale price, the Federal upper limit, the State
          maximum allowable cost, or the provider’s usual and customary charge. States often
          reimburse for physician-administered drugs in a different manner, though most still use
          average wholesale price as the primary basis for determining reimbursement.


Medicaid’s Use of Revised Average Wholesale Prices   2                                  OEI-03-01-00010
Revised Drug Prices for Medicaid

          A recent investigation conducted by the United States Department of Justice and the
          National Association of Medicaid Fraud Control Units (NAMFCU) revealed that some
          drug manufacturers were reporting inflated average wholesale prices for certain products.
          The investigation suggested that these inflated prices have caused the Medicaid program
          to overpay substantially for these drugs. As a result, the Justice Department and the
          NAMFCU collected actual average wholesale pricing data for approximately 400 of the
          more than 50,000 national drug codes presently in use. These 400 codes represent 51
          injectable, infusion, and inhalation drugs. The data was gathered from several wholesale
          drug catalogs.

          In a February 2000 letter to State Medicaid pharmacy directors, the NAMFCU stated that
          the pricing data had been given to First DataBank, the company that provides average
          pricing information to nearly all of the State Medicaid agencies. First DataBank agreed to
          use this data to calculate revised average wholesale prices for the 51 drugs, and to
          subsequently make the revised prices available to the States. In encouraging the States to
          take advantage of these revised prices, the NAMFCU wrote:

                    This revised procedure does not change the terms of the company’s [First
                    DataBank’s] contract with your State, but merely provides an improved
                    means for First DataBank to provide more accurate information to the
                    States. More importantly, in view of the Medicaid program’s legal
                    obligation to reimburse true provider acquisition costs, such an effort by
                    the States to ensure that payment is based on actual prices is mandatory.

          According to the letter, Medicaid agencies may make changes to the list of national drug

          codes with revised prices. First DataBank agreed that every six months it would collect

          information from wholesale catalogs when updating prices for the approximately 400

          national drug codes. The NAMFCU anticipated that the use of the revised prices would

          result in a significant reduction in reimbursement for the drugs involved.


          First DataBank began reporting the revised average wholesale prices to States on 

          May 1, 2000. However, some States did not wish to use the revised prices, and requested

          that First DataBank continue to supply the original prices instead. 



METHODOLOGY

          We reviewed relevant information about the Medicaid program, specifically materials
          relating to Medicaid drug reimbursement. In addition, we obtained correspondence from
          First DataBank and the NAMFCU concerning the implementation of the revised average
          wholesale prices.



Medicaid’s Use of Revised Average Wholesale Prices   3                                    OEI-03-01-00010
Data Collection and Analysis

          We conducted telephone interviews with Medicaid representatives in 48 States and the
          District of Columbia, hereinafter referred to as a State. Whenever possible, the interview
          was conducted with the States’ drug program administrator. We did not speak with
          Medicaid staff from Arizona because the State’s drug benefit is administered completely
          through managed care organizations and not the traditional fee-for-service system.
          Representatives of Maine’s Medicaid program did not respond to our request for an
          interview. In this report, we use the word “State” to denote both a “State Medicaid
          agency” and “State Medicaid agency representative.”

          Before contacting the States, we developed questions about the revised average wholesale
          prices with the assistance of CMS staff and two State drug program administrators. We
          asked States about their drug reimbursement methodologies, whether or not they had
          implemented the revised average wholesale prices, and if they had any problems or
          concerns about these prices. We also asked States that had implemented the revised
          prices to provide cost-savings estimates. However, we did not validate the cost-savings
          estimates reported by States. We also gave each State an opportunity to discuss any other
          issues they felt needed to be addressed concerning the revised average wholesale prices.
          We collected this data between January and March 2001.




Medicaid’s Use of Revised Average Wholesale Prices   4                                  OEI-03-01-00010
                                               FINDINGS

Thirty States use at least some of the revised average
wholesale prices when determining drug reimbursement
amounts
          Thirty States have incorporated the revised prices into their drug reimbursement
          methodology in some manner. However, States vary considerably in the methods of
          implementation. For the most part, States use these prices as one of the factors in
          calculating a drug’s reimbursement amount. States continue to use Federal upper limits,
          State maximum allowable costs, and various other pricing methods in combination with
          the revised average wholesale prices calculated by First DataBank.

          Because the revised average wholesale prices are based on national drug codes, many
          States have found it difficult to use them for physician-administered drugs, which are
          usually reimbursed by procedure code. Of the 30 States that have adopted the revised
          prices, nine States use them for both pharmacy drugs and physician-administered drugs.
          The remaining 21 States use the revised prices for pharmacy drugs only. A table outlining
          how each State uses the revised prices is provided in appendix A.

          Some States do not use the revised prices for certain drug products. For example, two
          States discontinued using the revised prices for blood factors. Three other States that
          base reimbursement primarily on wholesale acquisition cost or direct pricing use the
          revised prices only when these other prices are not available. One State cannot use the
          revised average wholesale prices for certain claims because First DataBank refused to
          provide the revised prices to one of the State’s contractors.

Eleven States do not take a percentage discount off the revised average
wholesale prices

          When determining reimbursement, States generally subtract a percentage discount from
          the drug’s average wholesale price. However, 11 of the 30 States that use the revised
          prices do not subtract this percentage discount when paying for drugs that have revised
          prices. Several States reported that the revised average wholesale prices are closer to a
          true acquisition cost; therefore, subtracting a percentage discount may actually make the
          reimbursement amount fall below a provider’s acquisition cost. They remarked that if
          providers were reimbursed below cost, they would simply stop providing these drugs,
          which could limit a patient’s access to care.

          Several other States have considered eliminating the percentage discount when
          determining reimbursement for the drugs with revised prices. However, these States are


Medicaid’s Use of Revised Average Wholesale Prices   5                                  OEI-03-01-00010
          unsure they have the authority to change their reimbursement methodology for this small
          group of drugs without undertaking significant administrative and/or legislative actions.


States reported both advantages and disadvantages to using
the revised prices
Some States were completely supportive of the efforts to revise prices

          Seven States reported only positive opinions about the revised prices. These States noted
          that reported average wholesale prices are often extremely inflated, and they welcomed
          the Justice Department’s and NAMFCU’s efforts to obtain more accurate prices. One
          State pharmacy director said, “This kind of pricing information should be aggressively
          pursued by First DataBank, the OIG, and HCFA.” Two other pharmacy directors hoped
          that the revised pricing would be expanded to even more drugs.

Other States appreciated the intent of the revised prices, but questioned whether
the effort was the best solution

          Seventeen States supported the efforts to revise prices, but had concerns with the specific
          actions taken. Four of these States believed that attempts to reduce excessive
          reimbursement for prescription drugs should not be based on determining more accurate
          average wholesale prices. According to these States, basing payment on the actual
          acquisition cost of a drug or on the average manufacturer’s price reported to CMS under
          the Medicaid Drug Rebate Program is a much more effective solution. The other 13
          States did not report problems with the use of average wholesale prices in general.
          Rather, they cited concerns about the particular drugs included in the revisions and
          questioned how the revised prices would be updated.

          Several States noted that the drugs chosen for pricing revisions were mainly infusion and
          injectable products that did not amount to a significant portion of Medicaid drug spending.
          One respondent termed these drugs “small potatoes,” and felt that price reductions should
          have been targeted to a different class of products such as oral tablets. Others noted that
          basing the revisions on specific national drug codes rather than entire drug classes could
          potentially limit the effectiveness of the revisions.

          States also expressed concern about the process of updating the revised prices. Even
          though First DataBank is required by its agreement with the NAMFCU to collect updated
          prices for these drugs, some States reported that First DataBank expressed little interest in
          updating the revised prices. According to these States, First DataBank only planned on
          reporting revised prices based on what the Justice Department and the NAMFCU
          provided them. Meanwhile, States were unsure if the Justice Department and the
          NAMFCU were planning to provide updated pricing information to First DataBank and/or
          add any new national drug codes to the pricing revisions.

Medicaid’s Use of Revised Average Wholesale Prices   6                                   OEI-03-01-00010
          Some States felt these problems were never addressed because the Justice Department and
          the NAMFCU sought little or no input from State drug program administrators.
          According to one State, many of the concerns States have with the revised prices could
          have been avoided if the drug program administrators had been included in the
          decision-making process.

States reported that certain groups opposed the use of the revised average
wholesale prices

          Forty-three States reported receiving complaints about the revised prices. These
          complaints were from a number of sources, including hemophilia groups, pharmacies,
          infusion providers, physicians, and drug manufacturers. All asserted that the revised
          prices were too low. Some hemophilia providers claimed that they would be unable to
          continue treating Medicaid recipients unless the prices for blood factors were raised.
          These complaints were instrumental in two States’ decisions to discontinue the use of the
          revised prices for blood-factor products, and have caused other States to contemplate the
          same action. In addition, some States volunteered that they had asked drug providers for
          invoices to substantiate claims that the revised prices were below acquisition costs. These
          States reported that invoice data was either not provided, or provided only for a very
          small number of drug codes (less than 10). In these cases, the States made revisions to
          prices based on the invoice data.

          The majority of the 19 States that are not using the revised prices felt that the prices may
          be too low, especially when a percentage discount is subtracted. Four of these 19 States
          actually used the revised prices at one time, but later reversed their decisions. Some
          States noted they checked with area wholesalers and distributors, and subsequently
          determined that the revised prices were not readily available to providers in their State.


States using the revised prices believe they will lead to
short-term savings, but are unsure of the long-term impact
          Of the 30 States currently using the revised prices, 24 believed there will be short-term
          cost savings. These States reported that short-term savings were inevitable due to
          significant per-unit price reductions for these drugs. However, some States suggested the
          savings would be small because there was low utilization for the drugs with revised prices,
          or that utilization for these drugs would simply shift to other products.

          Seven States provided an estimate of annual cost savings that would result from their drug
          price revisions. Each of these estimates was based on the assumption that utilization
          would remain constant. The States estimated annual savings between $800,000 and $7
          million.

          Twenty of the 30 States using the revised prices either did not believe or were unsure that
          the revised prices would result in long-term cost savings. Many of these States felt that

Medicaid’s Use of Revised Average Wholesale Prices   7                                    OEI-03-01-00010
          providers and manufacturers would find ways to circumvent the new prices. For instance,
          manufacturers could obtain new national drug codes for products with revised prices and
          report a higher average wholesale price for the new code. Because First DataBank only
          reported revised prices for the national drug codes that were supplied by the Justice
          Department and the NAMFCU, Medicaid would pay the higher prices reported for the
          newly-issued national drug codes. Furthermore, because the revised prices were issued on
          a product-specific and not a drug-class level, providers could substitute drugs with higher-
          priced national drug codes in place of codes with revised prices.




Medicaid’s Use of Revised Average Wholesale Prices   8                                  OEI-03-01-00010
                                         CONCLUSION

          Over the last several years, the OIG has produced a significant body of work that clearly
          demonstrates the inflated nature of reported average wholesale prices. Because most
          States base their reimbursement for drugs on average wholesale prices, this inflation has
          caused Medicaid to pay too much for certain products. Therefore, we commend any
          efforts to obtain more accurate pricing for the Medicaid program.

          This report shows that some States are benefitting from the revised average wholesale
          prices prompted by the actions of the Justice Department and the NAMFCU. However,
          States’ concerns about the revised prices indicate that attempting to lower reimbursement
          simply by further reducing average wholesale prices may not be an effective long-term
          solution. Therefore, we continue to believe that the current system’s reliance on reported
          average wholesale prices as a basis for drug reimbursement is fundamentally flawed.

Agency Comments

          The CMS agreed with our conclusion that the reliance on reported average wholesale
          prices as a basis for drug reimbursement is problematic, and stated that they will continue
          to look for administrative and legislative solutions to this problem. In addition, the CMS
          made two technical comments concerning items in the draft report. We have addressed
          the technical comments in this final version of the report. The full text of CMS’ comments
          is presented in Appendix B.




Medicaid’s Use of Revised Average Wholesale Prices   9                                  OEI-03-01-00010
                                                                                APPENDIX A



            Use of Revised Average Wholesale Prices by State

                               Uses Revised Prices for Uses Revised Prices for Subtracts Discount from
State                             Pharmacy Drugs          Physician Drugs           Revised Price
Alabama 1                                    x                   x                       x
Alaska                                       x
Arizona
Arkansas
California
Colorado
Connecticut                                  x                                           x
Delaware                                     x                   x
                           2
District of Columbia                         x                                           x
Florida                                      x
Georgia
Hawaii 3                                     x                   x                       x
        4
Idaho                                        x                                           x
Illinois                                     x
Indiana 2                                    x                   x                       x
Iowa
Kansas 4                                     x                   x
             5
Kentucky
Louisiana
Maine
Maryland                                     x                                           x
Massachusetts
Michigan
Minnesota 5
Mississippi
Missouri 5
Montana                                      x
Nebraska
Nevada                                       x                                           x
New Hampshire                                x                                           x
New Jersey                                   x
New Mexico                                   x                                           x
New York                                     x                                           x
North Carolina


Medicaid’s Use of Revised Average Wholesale Prices    10                                 OEI-03-01-00010
                                                                                         APPENDIX A


                              Uses Revised Prices for Uses Revised Prices for Subtracts Discount from
State                            Pharmacy Drugs          Physician Drugs           Revised Price
North Dakota 5
Ohio 1                                       x                                                          x
Oklahoma                                     x                                                          x
            4
Oregon                                       x                          x                               x
Pennsylvania                                 x                          x                               x
Rhode Island
South Dakota
South Carolina                              x                           x                               x
                     6
Tennessee                                    x                                                          x
          1, 4
Texas                                        x
Utah                                         x
Vermont                                      x                                                          x
Virginia
Washington                                   x
West Virginia                                x
                 7
Wisconsin                                    x                          x                               x
Wyoming
Source: OIG Survey of Medicaid States, January - March 2001

1
    State does not use revised prices for many of the affected drugs because State relies on methods other than
      average wholesale price as its primary reimbursement methodology.
2
    State no longer uses revised prices for blood-factor products based on complaints from providers.
3
    Revised prices not available to all State contractors.
4
    For a small number of national drug codes, State no longer uses revised prices since invoices sent by providers
      indicated prices were too low.
5
    State used revised prices at one time, but no longer does so.
6
 Most drugs are paid through a managed care organization. Only drugs provided to dual-eligible
Medicare/Medicaid     recipients and behavioral-health drugs are reimbursed through the pharmacy program.
7
    State does not use revised prices for drugs with State maximum allowable costs.




Medicaid’s Use of Revised Average Wholesale Prices           11                                         OEI-03-01-00010
                                                          APPENDIX B



             Health Care Financing Administration Comments





Medicaid’s Use of Revised Average Wholesale Prices   12        OEI-03-01-00010
                                                          APPENDIX B




Medicaid’s Use of Revised Average Wholesale Prices   13        OEI-03-01-00010
